APPENDIX

ia
TABLE OF CONTENTS
Page
Unpublished Opinion of the
United States Court of Appeals
For the Fourth Circuit
entered December 4, 2020 ................................................................................ 1a
Judgment of the
United States Court of Appeals
For the Fourth Circuit
entered December 4, 2020 .............................................................................. 14a
Order of the
United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing and Rehearing En Banc
entered January 4, 2021 ................................................................................. 15a
Amended Judgment in a Criminal Case of the
United States District Court
For the District of Maryland
entered January 24, 2018 ............................................................................... 16a

1a
USCA4 Appeal: 18-4069

Doc: 87

Filed: 12/04/2020

Pg: 1 of 13

Total Pages:(2 of 18)

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4069
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
TROY ALLEN LUCAS, a/k/a Troy Madron,
Defendant – Appellant.
Appeal from the United States District Court for the District of Maryland, at Baltimore.
Roger W. Titus, Senior District Judge. (1:16-cr-00284-RWT-1)
Argued: May 18, 2020

Decided: December 4, 2020

Before THACKER and RICHARDSON, Circuit Judges, and Kenneth D. BELL, United
States District Judge for the Western District of North Carolina, sitting by designation.
Affirmed by unpublished opinion. Judge Richardson wrote the opinion, in which Judge
Thacker and Judge Bell joined.
ARGUED: Mary Elizabeth Davis, DAVIS & DAVIS, Washington, D.C., for Appellant.
Sandra Wilkinson, OFFICE OF THE UNITED STATES ATTORNEY, Baltimore,
Maryland, for Appellee. ON BRIEF: Christopher M. Davis, DAVIS & DAVIS,
Washington, D.C., for Appellant. Robert Hur, United States Attorney, Martin J. Clarke,
Assistant United States Attorney, Jake Goodman, Student Law Clerk, OFFICE OF THE
UNITED STATES ATTORNEY, Baltimore, Maryland, for Appellee.

USCA4 Appeal: 18-4069

Doc: 87

2a
Filed: 12/04/2020

Pg: 2 of 13

Total Pages:(3 of 18)

RICHARDSON, Circuit Judge:
In 2008, Baltimore City Police wrongfully pinned the murder of Rob Long on
Demetrius Smith. And a local jury convicted him based on the testimony of two witnesses.
He served four years of a life sentence before federal investigators uncovered evidence that
led to his release. That federal investigation revealed that Long’s demise resulted from a
remarkable scheme to stop Long’s cooperation in an investigation of Jose Morales for theft.
Just days after learning from his lawyer that Long was cooperating in the theft
investigation, Morales hired Troy Lucas to kill Long. Federal authorities convicted
Morales of murder in 2013, and with Morales’ cooperation, federal efforts turned to Lucas.
Lucas was then convicted by a federal jury for his involvement in the murder-for-hire plot.
Lucas appeals, claiming the district court erred in excluding the testimony of a
deceased witness who had testified at Smith’s trial. He also argues that murder-for-hire is
not a crime of violence under the force clause of 18 U.S.C. § 924(c). We affirm.
I.

Background
On a March 2008 morning, Rob Long was shot twice in the head near Traci Atkins

Park in Baltimore, Maryland. He died from gunshots that came from no “more than two
feet away.” J.A. 997. Although Long was seen alone with Lucas fifteen minutes before
the murder, the authorities charged Smith for Long’s murder.
In 2010, a jury in Baltimore City convicted Smith based largely on the testimony of
two alleged eyewitnesses: Michelle Vicker and Mark Bartlett. Bartlett, now deceased,
testified that he saw Smith shoot Long while standing at the corner across from the park.
Bartlett claimed that around 7:30am he saw Smith “reach[] in his jacket and pull[] out a
2

USCA4 Appeal: 18-4069

Doc: 87

3a
Filed: 12/04/2020

Pg: 3 of 13

Total Pages:(4 of 18)

handgun and aim[] it at Mr. Long’s head.” J.A. 78. While video evidence from a pole
camera at the scene contradicted Bartlett’s testimony that he saw the murder, Smith’s
counsel failed to address this evidence on Bartlett’s cross-examination. Instead, Smith’s
counsel agreed to a stipulation that the video’s stated time was inaccurate. Smith was
convicted and sentenced to life in prison.
Five months after Long’s murder, law enforcement caught Morales in Texas with
six kilograms of cocaine, which led a federal jury to convict him of drug trafficking. Once
incarcerated on those charges, Morales provided information to prison officials about
Long’s murder. This information led to a federal investigation that revealed that Morales
and Lucas—not Smith—had murdered Long.
Long, it turns out, had agreed to cooperate with law enforcement just before he was
murdered. He cooperated against his longtime employer, Morales, in a state theft case.
Using the information Long provided, law enforcement obtained a search warrant for
Morales’ home, where they located stolen goods. Morales then contacted his attorney,
Stanley Needleman, “irritated” and “very upset” about the search warrant. J.A. 138. In
that discussion, Morales speculated that Long must have been the informant. Morales
demanded that Needleman find out if Long was cooperating with law enforcement. Based
on the Assistant State’s Attorney’s refusal to provide any information about the informant,
Needleman began to suspect that Long was the informant. He confirmed that suspicion
through Long’s own attorney, Alex Leikus, who gave away his client. Needleman relayed
this information to Morales, who became “enraged.” J.A. 139. Long was murdered two
days later.
3

USCA4 Appeal: 18-4069

Doc: 87

4a
Filed: 12/04/2020

Pg: 4 of 13

Total Pages:(5 of 18)

Based on the federal investigation, Morales was convicted and sentenced to life in
prison for Long’s murder. See United States v. Morales, 585 F. App’x 176 (4th Cir. 2014).
And state prosecutors requested that Smith’s conviction—which was still on appeal—be
vacated. Smith’s conviction was finally expunged in March 2016, six years after he had
been wrongfully convicted.
That left Lucas, whom Morales had hired to kill Long. In 2018, a federal jury
convicted Lucas based on Morales’ testimony 1 and corroboration from witnesses, a streetsecurity camera, phone records, and statements Lucas had made to law enforcement. Lucas
was convicted on all three counts charged in the indictment: conspiring to commit murderfor-hire resulting in death, using an interstate-commerce facility in the commission of
murder-for-hire conspiracy resulting in death, and using a firearm during a crime of
violence resulting in death. The district court sentenced Lucas to life in prison. Lucas now
appeals the exclusion of testimony from a deceased witness and the conclusion that murderfor-hire is a crime of violence under the force clause of 18 U.S.C. § 924(c).

1

Morales testified that his original idea was for Lucas “to shoot [Long] up with
some cocaine and make it look like he [overdosed].” J.A. 414–15. But if that plan failed,
Lucas explained that he could use the “small chrome pistol” he had shown to Morales just
days before the murder to kill Long instead. J.A. 415. Seeing the gun was sufficient
confirmation for Morales to pay Lucas $2,000 of the total $4,000 they had agreed upon for
Lucas to carry out the murder. See J.A. 416. Morales paid Lucas the remaining balance
upon receiving a call from Lucas the morning of March 24, 2008, confirming that “[the
murder] was finished, it was done.” J.A. 432. When he collected the cash from Morales,
Lucas told him that “[h]e shot [Long] in the back of the head, and [Long] spun around, and
then he shot him in the front.” J.A. 439.
4

USCA4 Appeal: 18-4069

II.

Doc: 87

5a
Filed: 12/04/2020

Pg: 5 of 13

Total Pages:(6 of 18)

Discussion
A.

Exclusion of hearsay testimony

During his trial, Lucas sought to introduce the transcript of Bartlett’s testimony from
Smith’s trial. In the trial that led to Smith’s wrongful conviction, Bartlett had testified that
he saw Smith shoot Long. The district court refused to admit Bartlett’s testimony under
the residual exception to the rule against hearsay, Rule 807. Lucas challenges this ruling.
We review for an abuse of discretion. See United States v. Shaw)Gí
(4th Cir. 1995). 2
The hallmark of Federal Rule of Evidence 807 is that the hearsay statement sought
to be admitted is trustworthy. Though the rule was meaningfully amended in 2019, the
Rule in effect at the time of Lucas’ trial permitted the admission of hearsay that was not
otherwise admissible if:
(1) the statement has equivalent circumstantial guarantees of trustworthiness;
(2) it is offered as evidence of a material fact;
(3) it is more probative on the point for which it is offered than any other
evidence that the proponent can obtain through reasonable efforts; and
(4) admitting it will best serve the purposes of these rules and the interests of
justice.

2

Lucas also argued below that the prior testimony should be admissible under Rule
804(b)(1), which permits former testimony when the declarant is unavailable under specific
circumstances. But Lucas has waived that argument on appeal, as he did not raise it in his
opening brief. IGEN Intern., Inc. v. Roche Diagnostics GmbH, 335 F.3d 303, 308 (4th Cir.
2003).
5

USCA4 Appeal: 18-4069

Doc: 87

6a
Filed: 12/04/2020

Pg: 6 of 13

Total Pages:(7 of 18)

Fed. R. Evid. 807 (2017). 3
Interpreting this version of Rule 807, we have held that a court should not rely on
“other evidence offered” at trial—rather than the circumstances of the hearsay statement
itself—when evaluating whether the statement contains sufficient guarantees of
trustworthiness. Shaw, 69 F.3d at 1253 n.5. 4 Instead, a court should consider the “‘totality
of the circumstances that surround the making of the statement,’” in determining whether
the statement has a “ring of reliability about it.” United States v. Clarke, 2 F.3d 81, 84–85
(4th Cir. 1993) (citing Idaho v. Wright, 497 U.S. 805, 822 (1990)). “This trustworthiness
requirement [] serves as a surrogate for the declarant’s in-court cross-examination.” Shaw,
69 F.3d at 1253 (citing Wright, 497 U.S. at 820).

3

The 2019 amendment to Rule 807 requires judging a statement’s trustworthiness
based on the totality of the circumstances, including corroborating evidence:
(1) the statement is supported by sufficient guarantees of trustworthiness—after
considering the totality of circumstances under which it was made and
evidence, if any, corroborating the statement; and
(2) it is more probative on the point for which it is offered than any other evidence
that the proponent can obtain through reasonable efforts.
See Fed. R. Evid. 807 (2019).
4

In Shaw, this discussion stemmed from our analysis of whether the prosecution’s
introduction of hearsay testimony violated the Confrontation Clause. Shaw, 69 F.3d at
1253. But the inquiry into trustworthiness under Rule 807 “aligns with the inquiry
demanded by the Confrontation Clause,” United States v. Clarke, 2 F.3d 81, 84 (4th Cir.
1993) (citing Idaho v. Wright, 497 U.S. 805, 822 (1990)), so we may rely on Shaw here.

6

USCA4 Appeal: 18-4069

Doc: 87

7a
Filed: 12/04/2020

Pg: 7 of 13

Total Pages:(8 of 18)

In Shaw, Shaw’s co-defendant was convicted based, in part, on the prior testimony
of two witnesses who died before Shaw’s trial. Id. at 1251. We affirmed the district court’s
decision to admit transcripts of the witnesses’ prior testimony at Shaw’s trial. We
considered whether the statements were “made under circumstances that guaranteed their
trustworthiness such that cross-examination would have been of marginal utility in testing
their accuracy.” Id. at 1253. Emphasizing that both witnesses had been robustly crossexamined and their inconsistencies vetted during their prior testimony, we found that added
cross-examination at Shaw’s trial would have been of only “marginal utility.” Id. at 1254–
55; see also United States v. Bumpass, 60 F.3d 1099, 1102 (4th Cir. 1995) (sufficient
guarantees of trustworthiness for a statement offered under Federal Rule of Evidence
804(b)(3) are established when “cross examination would add little to test the hearsay’s
reliability”). The marginal utility of further cross-examination coupled with the witnesses’
disincentive to lie at the first trial led us to find the statements to be sufficiently trustworthy.
Shaw, 69 F.3d at 1254.
Unlike Shaw, the district court here found that Bartlett’s testimony in Smith’s trial
was given under circumstances that lacked the type of cross-examination and vetting that
would guarantee the testimony’s trustworthiness. J.A. 217. The district court found that
the quality of Smith’s counsel’s cross-examination fell short of the representation required
to guarantee the trustworthiness of Bartlett’s testimony. As a result of defense counsel’s
poor performance, cross-examination of Bartlett in Lucas’ trial would have been “vastly
different and more extensive” had Bartlett been able to testify in person. J.A. 217; see also
J.A. 218 (“[T]here would have been a vastly different and far more searching and far7

USCA4 Appeal: 18-4069

Doc: 87

8a
Filed: 12/04/2020

Pg: 8 of 13

Total Pages:(9 of 18)

reaching cross-examination than took place in the proceedings in [the Smith case].”). We
agree.
Lucas argues that the district court erred by considering inconsistencies and
contradictory evidence to evaluate the trustworthiness of Bartlett’s prior testimony. But
we find that the district court’s analysis, focusing on the failure of Smith’s counsel to
conduct an effective cross-examination with the available information, focused correctly
on the “circumstances of the deceased witnesses’ statements” and not on “other
corroborating evidence in the record.” Shaw, 69 F.3d at 1253 n.5. In Shaw, we considered
in our trustworthiness analysis the “vigorous” questioning the witnesses endured on crossexamination and that the defendant’s counsel “took full advantage of his opportunity to
cross-examine” the later-deceased witnesses. Id. at 1254. The district court here similarly
considered whether Smith’s counsel effectively cross-examined Bartlett and reasonably
concluded he did not.

The contradicting evidence did not determine that Bartlett’s

testimony was untrustworthy. Instead, the district court’s holding relied on Smith’s
counsel’s failure to address the contradicting evidence during Bartlett’s cross examination.
While contradicting evidence may not be directly relied on to show untrustworthiness,
counsel’s failure to address such evidence is an appropriate consideration. Id. at 1253 n.5,
1254.
The district court properly considered that Bartlett’s testimony was given before a
judge and under oath rather than in an informal setting. But given “the totality of the
circumstances,” the district court determined that the testimony did not possess a sufficient
guarantee of trustworthiness. Without the assurance that Bartlett was properly cross8

USCA4 Appeal: 18-4069

Doc: 87

9a
Filed: 12/04/2020

Pg: 9 of 13

Total Pages:(10 of 18)

examined and vetted in the prior trial leading to an inference of untrustworthiness, we are
placed in precisely the position the hearsay rules are designed to guard against. Thus, we
find no basis for concluding that the district court’s determination was an abuse of
discretion. 5
B.

Section 924(c) crime of violence

Lucas’ § 924(c) conviction was predicated on two offenses: conspiracy to use
interstate commerce facilities to commit murder for hire resulting in death under 18 U.S.C.
§ 1958(a) 6 and use of interstate commerce facilities in the commission of murder for hire
resulting in death, also under 18 U.S.C. § 1958(a). Lucas argues that neither of these
predicate offenses qualify as “crime[s] of violence” under § 924(c)’s force clause. 7 We
disagree.

5

Finding no abuse of discretion, we need not wade into the government’s alternative
arguments about Rule 403 and harmless error. Cf. United States v. Castner, 50 F.3d 1267,
1272 (4th Cir. 1995).
6

“Whoever travels in or causes another (including the intended victim) to travel in
interstate or foreign commerce, or uses or causes another (including the intended victim)
to use the mail or any facility of interstate or foreign commerce, with intent that a murder
be committed in violation of the laws of any State or the United States as consideration for
the receipt of, or as consideration for a promise or agreement to pay, anything of pecuniary
value, or who conspires to do so, shall be fined under this title or imprisoned for not more
than ten years, or both; and if personal injury results, shall be fined under this title or
imprisoned for not more than twenty years, or both; and if death results, shall be punished
by death or life imprisonment, or shall be fined not more than $250,000, or both.” 18
U.S.C. § 1958(a) (emphasis added).
7

Both parties agree that after the Supreme Court’s decision in United States v.
Davis, 139 S. Ct. 2319 (2019), neither predicate qualifies as a crime of violence under the
residual clause of § 924(c).
9

USCA4 Appeal: 18-4069

Doc: 87

10a
Filed: 12/04/2020

Pg: 10 of 13

Total Pages:(11 of 18)

We determine de novo whether an offense qualifies as a crime of violence. United
States v. Evans, 848 F.3d 242, 245 (4th Cir. 2017). To qualify as a “crime of violence”
under § 924(c)’s force clause, the charged offense must have as an element the use,
attempted use, or threatened use of “physical force.” § 924(c)(3)(A). “Physical force”
means “violent force”—that is, “strong physical force” that is “capable of causing physical
pain or injury to another person.” Johnson v. United States, 559 U.S. 133, 140 (2010)
(emphasis in original).
We first consider the method under which we conduct this inquiry. The Supreme
Court adopted the categorical approach as one method of determining whether an offense
qualifies as a “crime of violence.” Sessions v. Dimaya, 138 S. Ct. 1204, 1211 (2018). In
applying the categorical approach, we “look only to the statutory definitions – i.e., the
elements – of a defendant’s [offense] and not to the particular facts underlying [the
offense]” to determine whether the offense qualifies as a crime of violence. Descamps v.
United States, 570 U.S. 254, 261 (2013) (cleaned up); United States v. Royal, 731 F.3d
 í WK &LU 3). However, this process is frustrated when the statute the
defendant is charged under is divisible. This is so because a divisible statute “lists
‘potential offense elements in the alternative,’ and thus includes ‘multiple, alternative
versions of the crime,’” United States v. Bryant, 949 F.3d 168, 173 (4th Cir. 2020) (quoting
Descamps, 570 U.S. at 260) (emphasis omitted), “render[ing] opaque which element
played a part in the defendant’s conviction,” Descamps, 570 U.S. at 260. When a statute
is divisible, we apply the modified categorical approach, which permits us to “examine a
limited set of documents, such as ‘the indictment, jury instructions, or plea agreement and
10

USCA4 Appeal: 18-4069

Doc: 87

11a
Filed: 12/04/2020

Pg: 11 of 13

Total Pages:(12 of 18)

colloquy,’” to remedy the opaqueness and determine “‘which of the statute’s alternative
elements formed the basis of the defendant’s prior conviction.’” Bryant, 949 F.3d at 173
(first quoting Mathis v. United States, 136 S. Ct. 2243, 2249 (2016); then quoting
Descamps, 570 U.S. at 262). Once we determine the precise offense of conviction, we
apply the above-mentioned traditional categorical approach to determine whether that
offense qualifies as a crime of violence under § 924(c)’s force clause. Id.
Section § 1958(a) is a divisible statute: one version of the offense requires the
government to prove as an element of the crime that “death result[ed]” from its commission
and carries a punishment of death or life imprisonment, while the other version does not
include a death-resulting element and provides a maximum sentence of twenty years. See
§ 1958(a); see also Mathis, 136 S. Ct. at 2256 (“If statutory alternatives carry different
punishments, then under Apprendi they must be elements.”); United States v. Tsarnaev¸
968 F.3d 24, 104–05 (1st Cir. 2020) (finding a statute “divisible into two branches: one in
which there is no ‘death results’ element (and the penalty is up to life in prison), and one
in which there is a ‘death results’ element (and the penalty can be death)”). Counts 1 and
2 of the indictment charged Lucas with the “death results” offense. See J.A. 13 (“which
offense resulted in the death of Robert Long”); J.A. 14 (same). So we consider the crimeof-violence question as it pertains to the “death results” offense under § 1958(a).
We look first to the conspiracy charged in Count 1. A conspiracy does not generally
qualify as a crime of violence because it requires “only that the defendant agreed with
another to commit actions that, if realized, would violate the [substantive crime of
violence].

Such an agreement does not invariably require the actual, attempted, or
11

USCA4 Appeal: 18-4069

Doc: 87

12a
Filed: 12/04/2020

Pg: 12 of 13

Total Pages:(13 of 18)

threatened use of physical force.” United States v. Simms, 914 F.3d 229, 233–34 (4th Cir.
2019) (en banc). But where the actor’s conviction “require[d] knowing conduct that
cause[d] bodily injury to another, [it] categorically involve[d] the ‘use’ of ‘violent force.’”
United States v. Allred, 942 F.3d 641, 655 (4th Cir. 2019). Our precedent is clear that “a
crime requiring the ‘intentional causation’ of injury requires the use of physical force.”
United States v. Battle, 927 F.3d 160, 166 (4th Cir. 2019) (quoting United States v.
Castleman, 572 U.S. 157, 170 (2014)); see also Castleman, 572 U.S. at 170 (“It is
impossible to cause bodily injury without applying force in the common-law sense.”); In
re Irby, 858 F.3d 231, 236 (4th Cir. 2017); Tsarnaev, 968 F.3d at 104–05. By requiring
that death result from the defendant’s conspiracy when the defendant has the “intent that a
murder be committed,” the charged conspiracy offense under § 1958(a) requires the “use
of physical force,” § 924(c)(1)(A), and thus is a crime of violence. See Tsarnaev¸968 F.3d
at 104-05.
Our outcome on the predicate offense charged in Count 2—the substantive crime of
using interstate commerce facilities in the commission of murder-for-hire—is dictated by
the same analysis. 8 As a result, we hold that either of Lucas’ § 1958(a) convictions
properly qualified as predicate crimes of violence to sustain Lucas’ § 924(c) conviction. 9

8

And our conclusion on this count is bolstered by United States v. Luskin, 926 F.2d
372, 379 (4th Cir. 1991). In that case, we held that the offense contained within the former
version of 18 U.S.C. § 1958 was a crime of violence under both the force and residual
clauses of § 924(c). Id. at 379 n.3.
9

Lucas also argues that the evidence failed to support the jury’s guilty verdict
because Morales did not adequately identify Lucas at trial and there was no evidence that
(Continued)
12

USCA4 Appeal: 18-4069

13a
Filed: 12/04/2020

Doc: 87

*

*

Pg: 13 of 13

Total Pages:(14 of 18)

*

The district court did not abuse its discretion in preventing the introduction of
essentially unchallenged testimony from a trial that led to a wrongful conviction. Nor did
the district court err in finding that Lucas’ § 1958(a) offenses qualify as crimes of violence
under 924(c). Accordingly, the judgment of the district court is
AFFIRMED.

Lucas used an interstate-commerce facility to facilitate Long’s murder. Reviewing these
claims de novo but viewing the evidence and making reasonable inferences in the light
most favorable to the government, we find more than sufficient evidence to support the
verdict. See J.A. 392 (Morales identifying Lucas in the courtroom); J.A. 431–34 (Morales’
testimony about making phone calls during the commission of the offense); J.A. 1052,
1056, 1058–62 (phone records showing calls).
13

14a

USCA4 Appeal: 18-4069

Doc: 88-2

Filed: 12/04/2020

Pg: 1 of 1

Total Pages:(17 of 18)

FILED: December 4, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4069
(1:16-cr-00284-RWT-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
TROY ALLEN LUCAS, a/k/a Troy Madron
Defendant - Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

15a

USCA4 Appeal: 18-4069

Doc: 92

Filed: 01/04/2021

Pg: 1 of 1

Total Pages:(18 of 18)

FILED: January 4, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4069
(1:16-cr-00284-RWT-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
TROY ALLEN LUCAS, a/k/a Troy Madron
Defendant - Appellant
___________________
ORDER
___________________
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Thacker, Judge Richardson, and
Judge Bell.
For the Court
/s/ Patricia S. Connor, Clerk

16a
&}1~1

I - Amended Judgment
in a1:16-cr-00284-RWT
Criminal Case with Supervised Release
(Rev. 10/2017)
Case
Document
110

Filed 01/24/18 Page 1 of 7Judgmcnt Page

I of 7

SRS

United States District Court
District of Maryland
UNITED STATES OF AMERICA
V.

TROY ALLEN LUCAS

AMENDED JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed on or After November 1, 1987)

Case Number: RWT-1-16-CR-00284-001
USM Number: NIA
Defendant's Attorney: Harry J Trainor & Christopher
Davis
Assistant U.S. Attorney: Sandra Wilkinson & Martin
Clarke
Date of Original Judgment: January 19, 2018
( or date of last amended judgment)

Reason for Amendment:
□ Correction of Sentence on Remand
□ Reduction of Sentence for Changed Circumstances (Fed.R.Crim.P.35(b))
□ Correction of Sentence by Sentencing Court (Fed.R.Crim.P.35(a))
□ Correction of Sentence for Clerical Mistake (Fed.R.Crim.P.36)
□ Modification of Supervision Conditions (18 U.S.C. § 3563(c) or 3583(e))
□ Modification oflmposed Term oflmprisonment for Extraordinary and
Compelling Reasons (18U.S.C. § 3582(c)(l))
□ Modification oflmposed Term oflmprisonment for Retroactive Amendment(s)
to the Sentencing Guidelines (18 U.S.C. § 3582(c)(2))
□ Direct Motion to District Court Pursuant to:
□
28 U.S.C. § 2255;
□
18 U.S.C. § 3559(c)(7); or
□
Modification of Restitution Order

- - - - ALEO

----- LOGGED

-

ENTERED

- - - - RECEtVEI)

JAN 2 3 2018
n, e-. Ar C:Jri?;;f.;N!'Jtl'r

av

~U.$. OISTAicr co
ICT OF MARywj/,fff'

DEPurv

~

Order of Court
THE DEFENDANT:
□ pleaded guilty to count(s) _ _ .
□ pleaded nolo contendere to count(s) - - ~ which was accepted by the court.
~ was found guilty on count(s) 1, 2 and 3 of the Indictment after a plea of not guilty.
Title & Section

Nature of Offense

Date
Offense Concluded

Count
Number{s)

18 U.S.C. § 1958(a)

Murder-For-Hire Conspiracy

03/24/2008

1

The defendant is adjudged guilty of the offense(s) listed above and sentenced as provided in pages 2 through
7
of this
judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984 as modified by United States v. Booker, 543 U.S.
220 (2005).
□
□

The defendant has been found not guilty on count(s) _ _ .
Count(s) _ _ (is)(are) dismissed on the motion of the United States.

IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are
fully paid.

i\iame of Court Reporter: Linda Marshall

17a
Amended Judgment in aCase
Criminal1:16-cr-00284-RWT
Case with Supervised Release (Rev.Document
10/2017)

DEFENDANT:

TROY ALLEN LUCAS

CASE NUMBER:

RWT-1-16-CR-00284-001

110 Filed 01/24/18 Page 2 of 7 Judgment Page 2

of 7

ADDITIONAL COUNTS OF CONVICTION
Title & Section
18 U.S.C. § 1958(a)

18 U.S.C. 924(c)(l)(A)

Nature of Offense
Use Of Interstate Commerce
Facilities In The Commission Of
Murder-For-Hire
Use Of A Fireann During Crime Of
Violence Resulting In Death

Date Offense
Concluded
03/24/2008

Count
Number{s)

03/24/2008

3

2

18a
Case 1:16-cr-00284-RWT Document 110 Filed 01/24/18 Page 3 of 7
Sheet 2 - Amended Judgment in a Criminal Case with Supervised Release (Rev. 10/2017)

DEFENDANT: TROY ALLEN LUCAS

Judgment Page 3 of 7

CASE NUMBER: RWT-l-16-CR-00284-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
for a total term of Life as to Count 1, Life as to Count 2 , 10 years as to Count 3 to run consecutively to Counts
1 &2.
iZl The court makes the following recommendations to the Bureau of Prisons:

1. That the defendant be designated to the FMC at Butner, North Carolina for service of his sentence.
IZI The defendant is remanded to the custody of the United States Marshal.
□

The defendant shall surrender to the United States Marshal for this district:
□

□
□

at _ _ _ a.m./p.m. on _ __
as notified by the United States Marshal.

The defendant shall surrender, at his/her own expense, to the institution designated by the Bureau of
Prisons at the date and time specified in a written notice to be sent to the defendant by the United States
Marshal. If the defendant does not receive such a written notice, defendant shall surrender to the United
States Marshal:
□

before 2 p.m. on _ __

□

A defendant who fails to report either to the designated institution or to the United States Marshal as
directed shall be subject to the penalties of Title 18 U.S.C. §3146. If convicted of an offense while on
release, the defendant shall be subject to the penalties set forth in 18 U.S.C. §3147. For violation of a
condition of release, the defendant shall be subject to the sanctions set forth in Title 18 U.S.C. §3148. Any
bond or property posted may be forfeited and judgment entered against the defendant and the surety in
the full amount of the bond.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___ to ___ at _ __, with a certified copy of this judgment.

UNITED STATES MARSHAL
By:
DEPUTY U.S. MARSHAL

19a
Case 1:16-cr-00284-RWT Document 110 Filed 01/24/18 Page 4 of 7 Judgment Page 4

Shi.et 3- Amended Judgment in a Criminal Case with Supervised Release (Rev. 10/2017)

DEFENDANT:TROYALLENLUCAS

of 7

CASE NUMBER: RWT-l-16-CR-00284-001

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years as to
Count 1; 5 years as to Count 2: 5 years as to Count 3; terms to run concurrently with each other.
The defendant shall comply with all of tlie following conditions:
The defendant shall report to the probation office in the district to which the defendant is released within 72
hours of release from the custody of the Bureau of Prisons.

A.

MANDATORY CONDITIONS

1) You must not commit another federal, state or local crime.
2) You must not unlawfully possess a controlled substance.
3) You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future substance
abuse. (check if applicable)
4) □ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
5) □ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6) □ You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7) □ You must participate in an approved program for domestic violence. (check if applicable)
You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page

B.

STANDARD CONDITIONS OF SUPERVISION

As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1) You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
2) After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3) You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4) You must answer truthfully the questions asked by your probation officer.
5) You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware ofa change or expected change.
6) You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7) You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you
from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8) You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9) If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.

20a
Shr;ct 4.01 - Amended Judgment
a Criminal Case with Supervised Release
(Rev. 10/2017)
Case in1:16-cr-00284-RWT
Document
110

DEFENDANT: TROY ALLEN LUCAS

Filed 01/24/18 Page 5 of 7 Judgment Page

5 of 7

CASE NUMBER: RWT-1-16-CR-00284-00 l

l 0) You must not own, possess, or have access to a frrearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11) You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without frrst getting the permission of the court.
12) If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confrrm that you have notified the person about the risk.
13) You must follow the instructions of the probation officer related to the conditions of supervision.

C. SUPERVISED RELEASE
ADDITIONAL CONDITIONS
Drug Treatment
IZI
You must participate in a substance abuse treatment program and follow the rules and regulations of
that program. The probation officer will supervise your participation in the program (provider, location,
modality, duration, intensity, etc.).
Substance Abuse Testing
~
You must submit to substance abuse testing to determine if you have used a prohibited substance. You
must pay the costs of the program as directed by the probation officer. You must not attempt to obstruct or
tamper with the testing methods.
Mental Health Treatment
IZI
You must participate in a mental health treatment program and follow the rules and regulations of that
program. The probation officer, in consultation with the treatment provider, will supervise your participation in
the program (provider, location, modality, duration, intensity, etc.).
Special Assessment
~
Pay special assessment of $300.00.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www uscourts gov.
Defendant's Signature _ _ _ _ _ _ _ _ _ _ _ _ __

Date _ _ _ _ _ _ __

21a
Sheet 5 Part A - Amended
Judgment
in a Criminal Case with Supervised
Release (Rev. 10/2017)
Case
1:16-cr-00284-RWT
Document
110 Filed 01/24/18 Page 6 of 7Judgment Page 6 of 7
DEFENDANT: TROY ALLEN LUCAS
CASE NUMBER: RWT-l-16-CR-00284-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 5B.

E_in_e

Assessment

Restitution
$ NIA

□

$ 300.00
CYB Processing Fee $30.00

D

The determination of restitution is deferred until _ _ _ _ _ _ _ _~

□

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

$ Waived

TOTALS

An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such
determination.

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

TOTALS

Total Loss*

Restitution Ordered

0

$

Priority or
Percentage

$

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full
before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(t). All of the payment options on Sheet 6
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

D

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
D the interest requirement is waived for the

□

fine

□

restitution

D the interest requirement for the
D fme D restitution is modified as follows:
~ Findings for the total amount of losses are required under Chapters 109A, 110, 11 0A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.

22a
Shiet 6 Part B - Amended
Judgment
in a Criminal Case with Supervised
Release (Rev. I110
0/2017)
Case
1:16-cr-00284-RWT
Document

Filed 01/24/18 Page 7 of 7Judgment Page

DEFENDANT: TROY ALLEN LUCAS

7 of 7

CASE NUMBER: RWT-l-16-CR-00284-001

SCHEDULE OF PAYMENTS
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) frne interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.
Payment of the total frne and other criminal monetary penalties shall be due as follows:
A

C8J Special Assessment of$300.00 to be paid in full immediately.

B

□

$_ _ _ immediately, balance due (in accordance with C, D, or E); or

C

□

Not later than

D

D Installments to commence _ _ _ day(s) after the date of this judgment.

E

D In _ _ _ (e.g. equal weekly, monthly, quarterly) installments of$_ _ _ over a period of _ _ _ year(s) to commence

· or

when the defendant is placed on supervised release.
The defendant will receive credit for all payments previously made toward any criminal monetary penalties imposed.
Unless the court expressly orders otherwise, if this judgment imposes a period of imprisonment, payment of criminal monetary
penalties shall be due during the period of imprisonment. All criminal monetary penalties except those payments made through the
Bureau of Prisons Inmate Financial Responsibility Program, are to be made to the Clerk of the Court.

D NO RESTITUTION OR OTHER FINANCIAL PENALTY SHALL BE COLLECTED THROUGH THE INMATE
FINANCIAL RESPONSIBILITY PROGRAM.
If the entire amount of criminal monetary penalties is not paid prior to the commencement of supervision, the balance shall be paid:

D in equal monthly installments during the term of supervision; or
D on a nominal payment schedule of$._ _ _ per month during the term of supervision.
The U.S. probation officer may recommend a modification of the payment schedule depending on the defendant's financial
circumstances.

Special instructions regarding the payment of criminal monetary penalties:
D Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, ifappropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

D

The defendant shall forfeit the defendant's interest in the following property to the United States:

